USDOJ/OIG Special
Report
THE DEPARTMENT OF
JUSTICE'S
RESPONSE TO THE ZONA ROSA MURDERS
(September, 1996)
Redacted Version
Table of Contents
After viewing any of
the following links, use your browser's GO/BACK function to return to this page.
EXECUTIVE SUMMARY
I. INTRODUCTION
A. Background
B. Objective, Scope, and Methodology of the Investigation
C. Organization of this Report
II. DOJ'S RESPONSE TO THE
ZONA ROSA MURDERS: THE CRIMINAL INVESTIGATION AND PROSECUTION
A. Introduction
B. DOJ's Role in the Immediate
Aftermath of the Murders
C. The Salvadoran
Investigation
1. The Salvadoran Forensic and Crime Scene
Investigation
2. The Salvadoran Interviews of Witnesses
D. FBI Assistance to the
Salvadoran Investigation
1. FBI Investigative Steps
2. FBI Laboratory Assistance
E. The Break in the
Case--the Arrest of Garcia
F. The Arrest of
William Celio Rivas-Bolanos and Jose Abraham Dimas Aguilar
1. Statements to Salvadoran Authorities
(a) The Confession of Rivas
(b) The Statement of Garcia
(c) The Statement of Jose Abraham Dimas Aguilar
(d) The Press Conference
(e) The Statement of David Wilber Villalta Ruano
2. The Eyewitness Identification of Rivas
3. Salvadoran Charges against Rivas, Garcia, and Dimas
4. Salvadoran Theory of the Murders
G. DOJ Opens an Investigation
in 1987
1. Background
2. DOJ's Investigative Plan
3. DOJ's Analysis of the Case
4. DOJ Trips to El Salvador and Witness Interviews
(a) [REDACTED]
(b) Garcia
(c) Other Supporting Witnesses
5. FBI Interviews of Witnesses
6. Problems with United States Prosecution of Rivas
(a) Extradition
(b) Admissibility of Rivas' Confessions
(c) Motion to Suppress [REDACTED] Identification
of Rivas
(d) Problems with Evidence Handling
(e) Problems Obtaining Information During a Civil War
7. The Indictment of Rivas
8. Plans to Obtain Custody of Rivas
H. Current Status of
Prosecution of Rivas
1.Outcome of Judicial Proceedings in El
Salvador
2. Deterioration of the United States Case against Rivas
3. Release of Rivas by the Salvadorans in 1995
I. DOJ Information on
Other Alleged Perpetrators
1. Juan Antonio Morales Lucero
2. Other Alleged Perpetrators
J. DOJ Information on
Alleged "Intellectual Authors"
1. Pedro Antonio Andrade
2. Jose Manuel Melgar, aka Rogelio Martinez
3. Francisco Alberto Jovel
K. Others Mentioned in
Connection with the Murders
1. Gilberto Osorio
2. Pedro Vladimir Rodriguez
3. Other Perpetrators Mentioned in CIA, DOS and DOD OIG
Reports
L. Assessment of the
Salvadoran and United States Efforts to Identify and Prosecute
those Responsible for the Murders
1. Salvadoran Efforts
2. DOJ Efforts
III. DOJ'S
RELATIONSHIP WITH THE ZONA ROSA SUSPECTS
A. Introduction
B. Information DOJ
Received from Perpetrators/"Intellectual Authors" of
the Murders
1. Garcia
2. Andrade
3. Rivas
C. DOJ's Relationship
with Perpetrators/"Intellectual Authors" of the Murders
IV. THE ENTRY OF ZONA ROSA
SUSPECTS INTO THE UNITED STATES
A. Introduction
B. The Parole Request
for Andrade
1. Andrade's Arrest in El Salvador
2. DOJ Learns of Andrade's Arrest
3. Proposed Interview of Andrade
4. Washington Meetings Regarding Interview of Andrade
5. Interview of Andrade by the FBI and Chidester
6. Andrade's Polygraphs
7. DOJ Efforts to Review CIA Documents
8. The Embassy's September 1989 Request for DOJ Decision on
Prosecution and the Issue of Parole
9. Washington Interagency Meetings Concerning the Parole
Request
(a) September 27, 1989, Meeting Between
DOJ and CIA
(b) September 29, 1989, Meeting Between DOJ and DOS
(c) Interagency Meeting on October 5, 1989
(e) Conclusions about Interagency Meetings
10. Response to the Washington Interagency
Meetings
11. DOJ's Assessment of the Case Against Andrade
12. CIA's Review of Intelligence on Andrade
13. The Parole Request Cable in March 1990
(a) The Request
(b) Responsibility for the Parole Request
(c) Addressees on the Parole Request
14. The FBI's Handling of the March 1990
Parole Request Cable
(a) FBI Headquarters' Handling of the
Cable
(b) Mexico City Legat's Handling of the Cable
(c) WMFO's Handling of the Cable
(d) Conclusions Regarding the FBI's Handling of the
Parole Request Cable
C. Granting of the Parole
Request by INS
D. Andrade Enters the
United States
E. DOJ Attorneys Learn
About Andrade's Parole
F. DOJ OIG
Conclusions with Regard to Andrade's Parole
G. Current INS
Actions Regarding Andrade
H. Gilberto Osorio
1. Introduction
2. DOJ Information on Osorio Before 1995
3. Recent FBI Interview of Osorio
V. DOJ INFORMATION ON
REPRISALS FOR ZONA ROSA MURDERS
ATTACHMENT A -- CHRONOLOGY
OF DOJ ACTIONS AND SIGNIFICANT EVENTS IN THE ZONA ROSA MATTER
ATTACHMENT B -- GLOSSARY OF TERMS
AND NAMES
#####